Executive Summary
Table of Contents




                    If It Prints,
                    It Ships:
                    3D Printing
                    and the
                    Postal Service
Observations




                    RARC Report
                    Report Number:
                    RARC-WP-011-DR

                    July 7, 2014
Appendices




                                     Print
Executive Summary




                                                                                 Executive
Table of Contents




                                                                                 Summary
                                                                                 We are living in a world where it is possible to convert                Highlights
                                                                                 digital files at one location into physical objects at another,
                                                                                 transforming bits into atoms. We can do this with 3D printing,             3D printing is in the initial stages of transforming
                                                                                 a technology that turns customers into creators and has the                major parts of our economy, such as aerospace
                                                                                 potential to make a significant impact on the $10.5 trillion global        and healthcare. It also promises to revolutionize the
                                                                                 manufacturing industry. 3D printers build solid objects usually            way consumers get customized goods by making
                          As 3D printing spreads and                                                                                                        them cheaper and more accessible.
                                                                                 one razor-thin layer at a time using plastics, powders, metals,
                            moves production closer                              polymers, or other materials. New techniques are rapidly
                                                                                 expanding the capabilities of this technology, such as producing           Prominent industry forecasts show the 3D printing
                                                                                 surfaces as smooth as glass. People are already using 3D                   market exploding over the next several years.
                             to consumption, it could
                                                                                 printing to create a wide range of things, from airplane parts,
                          have major implications for                            dental implants, and custom-fit hearings aids to personalized              3D printing could lead to an increase in packages
                                                                                 iPhone cases and tiny action figures. In addition, scientists are          delivered by the Postal Service worth $485 million
Observations




                                                                                 experimenting with using 3D printing to replicate and replace              in new annual revenue, based on analysis of
                             everyone along existing                             living human tissues, producing a “bioink” that could someday              commercial package volume data.
                                                                                 revolutionize medical care.
                         supply chains, including the                                                                                                       Emerging 3D printing businesses could use the
                                                                                 As 3D printing spreads and moves production closer to                      ubiquitous first- and last-mile postal network to
                                  U.S. Postal Service.                           consumption, it could have major implications for everyone                 connect with their customers.
                                                                                 along existing supply chains, including the U.S. Postal Service.
                                                                                 3D printing could lead to more single-item parcels being                   The Postal Service could partner with 3D printing
                                                                                 shipped to consumers over shorter distances, instead of                    businesses, perhaps using excess space in postal
                                                                                 hundreds of thousands of identical items sent by containerized             facilities, to help streamline the fast delivery of 3D
                                                                                 cargo over vast distances. It could also lead to reduced fuel              printed goods.
                                                                                 consumption and exhaust emissions, as well as less material
                                                                                 waste due to precise manufacturing. Moreover, 3D printing
                                                                                 could make large retailers rethink their need for maintaining         2018. Given its potential size, 3D printing could start to reshore
                                                                                 expensive and duplicative warehouses stocked with massive             previously outsourced manufacturing back to the United States.
Appendices




                                                                                 inventories in favor of just-in-time inventory.                       Someday very soon, 3D printing could be a powerful engine for
                                                                                                                                                       job creation and economic growth.
                                                                                 The size of the 3D printing industry helps to convey how
                                                                                 important it could be to the American public and the Postal           3D printing has already come to dominate rapid prototyping and
                                                                                 Service. The total 3D printing industry was valued at around          is fundamentally altering other industrial activities. However,
                                                                                 $3 billion in 2013 and is expected to grow to $16.2 billion by        much of the excitement around 3D printing is driven by the

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                               Print                                    1
Executive Summary                                                                potential for customized products. 3D printing allows people to       The Postal Service could take further actions to ensure that
                                                                                 actually design or buy things that previously existed only in their   it helps to meet the future needs of citizens and businesses.
                                                                                 imagination. This wave of mass customization is converging            For example, the Postal Service could partner with 3D printing
                                                                                 with an emerging maker movement — innovative artisans,                companies and even potentially bring some printing onsite at
                                                                                 entrepreneurs, and everyday people who can use 3D printing to         postal facilities, as well as provide microwarehousing to help
                                                                                 bring their digital creations into the physical world. 3D printing    ensure rapid shipment of 3D printed goods. The Postal Service
                                                                                 has the power to democratize manufacturing by giving more             could also help protect copyrighted or sensitive digital design
                                                                                 people access to production and allowing them to make unique          files by providing a trusted online marketplace for transmission
                                                                                 items. As the list of things that can be printed continues to grow,   of designs, or by delivering some files physically through
                                                                                 consumer interest in 3D printing will gain momentum.                  carriers. This could bring a level of security, confidentiality, and
                                                                                                                                                       privacy that the Internet cannot match. In addition, the Postal
                                                                                 The Postal Service could benefit tremendously by the rise             Service could look into how advertisers might use 3D printing
                                                                                 of 3D printing. This is primarily due to two factors: the Postal      to customize offerings and better connect with consumers. The
                                                                                 Service’s ubiquitous first- and last-mile delivery network            Postal Service could also use 3D printing to improve its own
                                                                                 and its strength in handling lightweight goods. The Office of         internal operations by printing spare parts to repair vehicles and
Table of Contents




                                                                                 Inspector General asked Christensen Associates — a renowned           mail processing equipment more efficiently.
                                                                                 economic consulting firm with extensive knowledge of Postal
                                                                                 Service operations — to assess how 3D printing could affect           The 3D printing revolution has only just begun. 3D printing
                                                                                 the Postal Service. By analyzing commercial package data,             has the potential to be amazingly disruptive, and some people
                                                                                 Christensen Associates estimated that 3D printing could raise         think the changes brought on by it will exceed even those
                                                                                 the Postal Service’s annual package revenue by $485 million           of the Internet. While the Internet did much to overcome the
                                                                                 as businesses ship increasing numbers of 3D printed goods             challenges of time and distance by making everything local,
                                                                                 to consumers.                                                         3D printing could take things to the next level by making on-
                                                                                                                                                       demand products at any location. The question is, who will win
                                                                                 To capture the potential benefit of 3D printing, the Postal           from a 3D printing revolution and who will lose? By embracing
                                                                                 Service must at least maintain its current delivery network and       this groundbreaking technology, the Postal Service could put a
                                                                                 keep pace with evolving consumer needs. Many 3D printed               compelling 21st century twist on its historical mission to serve
                                                                                 products will be manufactured closer to where consumers live          citizens and facilitate commerce.
                                                                                 but will still need last-mile delivery. Businesses wishing to put
                                                                                 their 3D printed products in the hands of consumers as quickly
                                                                                 and conveniently as possible may need the ubiquitous postal
Observations




                                                                                 network. And if people someday print many items directly, they
                                                                                 may frequently need 3D printing supplies such as powders and
                                                                                 binding materials delivered. No other organization covers as
                                                                                 much ground as frequently and reliably as the Postal Service.
                                                                                 Moreover, the generally small and lightweight nature of 3D
                                                                                 printed items makes them a perfect fit for delivery by the Postal
                                                                                 Service. Private delivery firms already use the Postal Service
                                                                                 for final delivery of many of their own small packages because
                                                                                 the Postal Service’s network allows it to deliver these packages
                                                                                 more cost effectively.
Appendices




                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                Print                                     2
Executive Summary
                    Table of Contents                                            Table of Contents
                                                                                 Cover........................................................................................................................................... 1
                                                                                 Executive Summary.................................................................................................................... 1
                                                                                 Table of Contents........................................................................................................................ 3
                                                                                 Observations............................................................................................................................... 4
                                                                                  Introduction............................................................................................................................... 4
                                                                                  What is 3D Printing?................................................................................................................. 5
                                                                                    What Are People 3D Printing?................................................................................................ 5
                                                                                    Strengths and Weaknesses of 3D Printing............................................................................. 6
                                                                                  The Precise Future of 3D Printing is Still Uncertain.................................................................. 7
Table of Contents




                                                                                    Growth of the 3D Printing Market........................................................................................... 8
                                                                                    Intellectual Property and Liability Issues................................................................................ 9
                                                                                    Where Will Consumers Access 3D Printing?......................................................................... 9
                                                                                  3D Printing Could Bring Substantial Benefits and Opportunities for the Postal Service......... 10
                                                                                    Centralized 3D Printing: Businesses Sell Finished 3D Printed Goods to Consumers......... 11
                                                                                    Decentralized 3D Printing: People Print Some Goods at Home Instead of Buying Them... 11
                                                                                  The Postal Service Could Play a Major Role in 3D Printing................................................... 12
                                                                                    Consider How 3D Printing Could Affect Current Focus and Core Assets............................ 12
                                                                                    Establish New Services Targeted at 3D Printing Businesses............................................... 13
                                                                                    Think about How Advertisers Could Use 3D Printing to Connect with Customers............... 14
Observations




                                                                                    Use 3D Printing to Improve Internal Operations................................................................... 14
                                                                                  Conclusion.............................................................................................................................. 14
                                                                                 Appendices................................................................................................................................ 15
                                                                                 Appendix A: 3D Printing Case Studies...................................................................................... 16
                                                                                 Appendix B: Details on Analysis of Commercial Packages Supply Chain Volumes.................. 18
                                                                                 Appendix C: Potentially Simultaneous Scenarios for 3D Printing............................................. 19
                                                                                 Appendix D: Retail Sectors that Could be Disrupted by In-Home 3D Printing.......................... 20
                                                                                 Contact Information................................................................................................................... 21
Appendices




                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                         Print                                        3
Executive Summary
                    Observations                                                 Introduction
                                                                                 Few of today’s emerging technologies have attracted as much attention as 3D printing. Many argue that it could change vast
                                                                                 swaths of the global manufacturing sector, much in the way the Internet revolutionized communication.1 This technology allows
                                                                                 people to create physical objects out of digital designs — often building them one razor-thin layer at a time — and has the potential
                                                                                 to democratize the means of production. Theoretically, anyone with a 3D printer can make virtually any object they can imagine
                                                                                 and design, subject to some basic limitations. If, as some predict, people 3D print many of the things they need on their own
                                                                                 instead of buying them online or at brick-and-mortar stores, global supply chains could shatter, longstanding industries could
                                3D printing could be                             collapse, and many aspects of life as we know it could change.

                              the biggest change to                              Since the 1990s, 3D printing has driven big changes in some industries, unseen by many consumers. Given the tremendous
                                                                                 scale of global manufacturing, even a tiny disruption could have far-reaching consequences. Because the consumer 3D printing
                                                                                 revolution is still in its early stages, it is not yet clear exactly who will win from this significant disruption and who will lose. While
                              global manufacturing                               this technology promises to have profound ramifications for businesses all along the supply chain — including the U.S. Postal
                                                                                 Service — some of the fervor is based on unrealistic hype. This paper attempts to sift through much of that hype and get at the
                              since the invention of
Table of Contents




                                                                                 technology’s real possibilities and implications.
                                    assembly lines.                              Despite the hype and some uncertainty about the exact magnitude of the market, it is clear that 3D printing will be a substantial
                                                                                 force. It has been hailed as the next industrial revolution and “the biggest single disruptive phenomenon to impact global industry
                                                                                 since assembly lines.”2 A recent analysis forecasts the 3D printing industry growing to $16.2 billion by 2018.3 McKinsey estimates
                                                                                 that 3D printing’s total economic impact could be as large as $550 billion per year by 2025.4 If 3D printing took over just 2 percent
                                                                                 of the $10.5 trillion global manufacturing industry, it would be a $210 billion annual industry.5 Moreover, a sweeping 3D printing
                                                                                 revolution could radically change how some industries function, potentially transforming the notion of warehousing, removing some
                                                                                 of the need for long-haul shipments, and bringing more manufacturing jobs back to the United States. In such a world, consumers
                                                                                 might come to demand the customization enabled by 3D printing that they cannot get from today’s mass production techniques. By
                                                                                 helping this emerging class of manufacturers to thrive, the Postal Service could enhance the economic potential of this technology.

                                                                                 In addition, the rise of a vibrant, nationwide “maker” movement of people experimenting with                                                                  Video 1: 3D Printing Video
                                                                                 3D printing reflects the strong interest small-scale entrepreneurs and artisans have in this                                                           	  
                                                                                 technology. Individuals are already using 3D printing for all sorts of everyday items like jewelry
                                                                                 and pencil holders, while industrial printers are producing things like car parts, clothing, and
Observations




                                                                                 musical instruments. On a larger scale, 3D printing is fueling major advances in medicine and
                                                                                 industrial engineering.

                                                                                 Imagine a world where customers can easily modify countless products to their exact
                              Every 3D printed item                              specifications, and order these unique items via the Internet for home delivery. Every product
                                                                                                                                                                                 Source: PBS Off Book, via YouTube
                                                                                 ordered could be another product that needs shipping, which could lead to big increases in      http://youtu.be/X5AZzOw7FwA.
                                   ordered could be                              package deliveries for the Postal Service. However, the widespread use of 3D printers in
                                                                                 American households could divert some of the lightweight packages now handled by the Postal Service. Fortunately, if people print
                               another package that                              many items at home, they would need a constant supply of printing materials, many of which would need delivery.

                               needs home delivery.                              In addition to examining the facts, trends, and implications of 3D printing for the Postal Service, this paper also proposes several
                                                                                 potential strategies the Postal Service could follow to best position itself for the future.6

                                                                                 1
                                                                                     	 Wohlers Associates, Wohlers Report 2013: Additive Manufacturing and 3D Printing State of the Industry, Annual Worldwide Progress Report, p. 128.
Appendices




                                                                                 2
                                                                                     	 Transport Intelligence, The Implications of 3D Printing for the Global Logistics Industry, August 2012, http://www.transportintelligence.com/forms/get_whitepaper.php?wpID=76, p. 1.
                                                                                 3
                                                                                     	 Canalys, 3D Printing Market to Grow to U.S. $16 Billion in 2018, March 31, 2014, http://www.canalys.com/newsroom/3d-printing-market-grow-us162-billion-2018. The industry was worth $3
                                                                                       billion in 2013. Please see Wohlers Associates, “Wohlers Report 2014 Uncovers Annual Growth of 34.9% for 3D Printing and Additive Manufacturing Industry,” news release, May 1, 2014, http://
                                                                                       wohlersassociates.com/press63.html.
                                                                                 4
                                                                                     	 McKinsey Global Institute, Disruptive Technologies: Advances That Will Transform Life, Business, and the Global Economy, May 2013, http://www.mckinsey.com/insights/business_technology/
                                                                                       disruptive_technologies, pp. 105, 110.
                                                                                 5
                                                                                     	 “3D Printing Industry Predictions from Terry Wohlers,” 3D Innovations, http://www.3d-innovations.com/blog/3d-printing-industry-predictions-from-terry-wohlers/.
                                                                                 6
                                                                                     	 For this project, we hired Laurits R. Christensen Associates, an economic consulting firm with in-depth knowledge of U.S. Postal Service operations.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                           Print                                                  4
Executive Summary                                                                What is 3D Printing?
                                                                                 At a very basic level, 3D printing is the production of physical objects from virtual representations — like printing a coffee mug from
                                                                                 a digital design of a mug. Although 3D printing sounds like something straight out of a science fiction novel, the technology has
                                                                                 existed in various forms for decades.7 People used most early 3D printers for research, scientific purposes, and a few industrial
                                                                                 processes. Only recently has 3D printing emerged as a commercially viable method for producing consumer goods, due to
                                                                                 advancements in technology and materials, as well as more industry acceptance of 3D printing’s value.

                                                                                 There are several different techniques used for 3D printing. The most common uses                                                              Figure 1: 3D Printed Dental Implant
                                                                                 materials pushed out of a heated nozzle — similar to a hot glue gun — to build objects
                                                                                 layer by layer. Other techniques use lasers to create solid objects out of liquid resin
                                                                                 or dry powder that is selectively melted, or use glue to fuse together sheets of plastic
                                                                                 or paper that are cut to specific shapes. Regardless of the technique, 3D printing
                                                                                 is categorized as a type of “additive manufacturing,” meaning that it adds materials
                                                                                 together to create a new object. This is the opposite of subtractive manufacturing,
Table of Contents




                                                                                 where material is cut away from solid objects to create a final product.

                                                                                 The digital images that turn into 3D printed objects come from a few different sources.
                            Rapid prototyping is the                             Computer-aided design (CAD) programs can create virtual representations of physical
                                                                                 objects or items that are purely imaginary. Users can also access digital files from
                            most common use of 3D                                various websites with pre-existing designs, and then use those files to print the objects
                                                                                 directly or modify them before printing. In addition, 3D scanners capture physical
                             printing today because                              objects and convert them into digital files that can then be used by a 3D printer to
                                                                                 reproduce the physical object. There are even apps that can turn a smartphone or
                                  it enables quicker,                            tablet into a 3D scanner.8                                                                                                               	  
                                                                                                                                                                                                                          Source: 3D Systems.


                                  cheaper, and more                              What Are People 3D Printing?
                                                                                 Most people are familiar with some of the knick-knacks and unusual items 3D printers are cranking out right now. Countless news
                                 adaptable designs.                              articles have covered 3D printed smartphone cases, key chains, custom chess pieces with your face on them, and other such
                                                                                 products. The news media has paid less attention to the numerous practical uses for 3D printing. For example, Align Technology uses
Observations




                                                                                 3D printing to create each one of its popular Invisalign custom-fit, transparent braces.9 Since 1997, the company has manufactured
                                                                                 nearly 150 million aligners.10 3D printing can also create custom-made hearing aids, prosthetic limbs, and other crucial medical
                                                                                 devices. Given how quickly 3D printing has changed some industries already, other industries could change rapidly.

                                                                                 Rapid prototyping is the current primary driver of 3D printing. It allows for comparatively quick and simple production of first-of-its-
                                                                                 kind goods and gives engineers a greater ability to make swift changes in prototype design. Companies can even crowdsource
                                                                                 consumer preferences and product improvements through 3D printing by releasing designs for several different versions of a
                                                                                 product and collecting feedback on which version is most appealing.11

                                                                                 The aerospace and automotive industries also have shown that 3D printing can drive new efficiencies. F-18 fighter jets, which
                                                                                 have been in service for more than two decades, have about 90 parts per plane made with 3D printing.12 Airbus is already saving
                                                                                 millions of dollars per year by replacing parts on each plane with 3D printed components. The minor drop in weight per aircraft —
Appendices




                                                                                 7
                                                                                     	 Terry Wohlers and Tim Gornet, Wohlers Report 2013: History of Additive Manufacturing, p. 15.
                                                                                 8
                                                                                     	 For examples of 3D scanning technology, please see http://www.3ders.org/3d-scanning.html.
                                                                                 9
                                                                                     	 Martha Mendoza, “3-D Printing Goes From Sci-Fi Fantasy to Reality,” Associated Press, June 2, 2013, http://bigstory.ap.org/article/3-d-printing-goes-sci-fi-fantasy-reality, and “Treatment
                                                                                       Process,” Invisalign, http://www.invisalign.com/how-invisalign-works/treatment-process.
                                                                                 10
                                                                                      	 Align Technology, Corporate Fact Sheet: Q1 2014, http://www.aligntech.com/documents/Align%20Technology%20Corp%20Fact%20Sheet%202014%20Q1_F.pdf.
                                                                                 11
                                                                                      	 Daniel Cohen, Matthew Sargeant, and Ken Somers, “3-D Printing Takes Shape,” McKinsey Quarterly, January 2014, http://www.mckinsey.com/insights/manufacturing/3-d_printing_takes_
                                                                                       shape.
                                                                                 12
                                                                                      	 “3D Printing Scales Up,” The Economist, September 5, 2013, http://www.economist.com/news/technology-quarterly/21584447-digital-manufacturing-there-lot-hype-around-3d-printing-it-fast.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                            Print                                                    5
Executive Summary                                                                as little as 2.5 kilograms — multiplied across tens of thousands of flights results in big savings.13 In addition, Kelly Manufacturing
                                                                                 Co. is 3D printing components for critical aircraft flight instruments. With 3D printing, the turnaround time on these low-volume
                                                                                 parts has improved and the cost-per-part has decreased.14 In the automotive industry, BMW is using 3D printing to build light,
                                                                                 ergonomic tools for workers on their assembly lines. 3D printing can create parts that are mostly hollow, which makes their
                                                                                 continued use over an entire workday far less strenuous for the assembly line workers.15

                                                                                 In addition to industrial and commercial uses of 3D printing, there is also an active community of 3D printing hobbyists. Beginning
                                                                                 in 2009 or so, the expiration of key patents, combined with significant decreases in costs of critical components, enabled a
                                                                                 grassroots, open-source 3D printing community, which makes its designs and knowledge base freely available online.16 Objects
                                                                                 produced by hobbyists may be educational, artistic, or fun. Some are even functional, such as footwear, chip clips, and bottle
                                                                                 openers. A flourishing maker movement in the United States has fueled
                                                                                 interest in 3D printing as a means for innovative and more accessible               Figure 2: Areas of Application for 3D Printing
                                                                                 design and production.
                                                                                                                                                                                                                                     A REVOLUTION IN WAVES
                                                                                 Figure 2 depicts four major uses of 3D printing and rough adoption
Table of Contents




                                                                                                                                                                                                                                     3D printing is most commonly used for industrial
                                                                                 projections for each. Rapid prototyping led the first wave because of                                                                               purposes. The printing of finished consumer
                                                                                 the flexible design capabilities of 3D printing. The second wave involves                                                                           products and in-home printing lags behind.
                              3D printing is already                             improvements to traditional manufacturing techniques through targeted                                                                         50%
                                                                                 use of 3D printing. These first two are generally industrial applications,
                            fundamentally changing                               and will likely have limited impact on the Postal Service. The third key use                                                                                                                  Finished
                                                                                 is the 3D printing of finished goods or parts directly for consumer use. In-                                                                                                                  products
                            the aerospace, medical,                              home 3D printing is the most recent trend and the one whose path is most                                                                                        Rapid




                                                                                                                                                                                                        3D Printing Adoption
                                                                                                                                                                                                                                                               Molds &
                                                                                                                                                                                                                                                 Prototyping
                                                                                 uncertain.17 These final two applications are likely to have a strong impact                                                                                                  Tooling
                                                                                                                                                                                                                               25%
                                 dental, automotive,                             on the Postal Service, as discussed later in this paper. For more examples                                                                                                                In-home
                                                                                 of how people are using 3D printing, please see Appendix A.                                                                                                                               printing

                                 entertainment, and
                                                                                 Strengths and Weaknesses of 3D Printing
                                   other industries.                             3D printing has numerous important advantages over traditional                      0%

                                                                                 manufacturing techniques. It is ideal for creating objects that are relatively        1980     1990       2000      2010      2020       2030      2040
                                                                                                                                                                Source: Rough projections by Christopher Barnatt, ExplainingTheFuture.com.
                                                                                 small and customized to individual consumers or applications. 3D printing Source: Rough projections by Christopher Barnatt, ExplainingTheFuture.com.
                                                                                                                                                  18
Observations




                                                                                 allows for short, specialized production runs that do not require extensive
                                                                                 reconfiguration of machines as in traditional manufacturing. The process is highly automated, in theory allowing people with little to
                                                                                 no machine shop experience to produce highly specialized physical objects. 3D printing is also well suited to items with expensive
                                                                                 materials because it can minimize waste and produce items with up to 75 percent less material.19 Finally, 3D printing can produce
                                                                                 objects with more complex designs than would be practical or even possible with traditional manufacturing techniques.

                                                                                 However, 3D printing currently has some important limitations. For example, the range of materials available for printing is limited,
                                                                                 which reduces the number of things that can be printed. The 3D printing process itself can lead to weak spots in finished products,
                                                                                 given its layer-by-layer construction and potential flaws in some 3D designs. In addition, the simpler 3D printers are limited to
                                                                                 using only single materials for each object printed. Importantly, 3D printing takes a long time for larger objects as modest increases
                                                                                 in size can require dramatically longer times to print. Moreover, the technology is still evolving and some existing printers are


                                                                                 13
                                                                                      	 Curtis Carson, Head of Systems Integration, Centre of Competence Manufacturing Engineering at Airbus, quoted in “Airbus Envisions a 3D Printed Future,” On 3D Printing, April 4, 2014, http://
                                                                                       on3dprinting.com/2014/04/04/airbus-describes-3d-printed-future/.
Appendices




                                                                                 14
                                                                                      	 Stratasys, Kelly Manufacturing Case Study, http://www.stratasys.com/resources/case-studies/aerospace/kelly-manufacturing.
                                                                                 15
                                                                                      	 Stratasys, BMW Case Study, http://www.stratasys.com/resources/case-studies/automotive/bmw.
                                                                                 16	
                                                                                       McKinsey Global Institute, Disruptive Technologies, p. 108.
                                                                                 17	
                                                                                       Christopher Barnatt, “3D Printing: The Business Opportunities,” 3D Printer, October 7, 2013, http://www.3dprinter.net/3d-printing-the-business-opportunities.
                                                                                 18
                                                                                      	 Zack Schildhorn, “The Big Picture on 3D Printing: A VC Perspective” (presentation at Inside 3D Printing Conference + Expo, New York, Thursday, April 3, 2014).
                                                                                 19	
                                                                                        For examples, please see http://www.naefrontiers.org/File.aspx?id=39131, http://www.usrepresented.com/2013/12/19/additive-manufacturing/, and http://www.3ders.org/articles/20131024-3d-
                                                                                       printing-can-cut-material-consumption-co2-emissions.html.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                                            Print                                         6
Executive Summary                                                                Table 1: Comparison Between 3D Printing and Traditional Manufacturing                                                                            prone to breakdown and minor
                                                                                                                                                                                                                                  errors in production, resulting
                                                                                         3D PRINTING VS TRADITIONAL MANUFACTURING                                                                                                 in objects that are useless.20
                                                                                         Traditional manufacturing processes often require expensive, custom-configured equipment                                                 It also can take precisely
                                                                                         designed to mass produce products. 3D printers, conversely, make unique items from digital                                               controlled environmental
                                                                                         designs, often building them layer by razor-thin layer. Here is how the processes stack up.                                              conditions to get a high-quality
                                                                                                                                                                                                                                  print due to the sensitivity to
                                                                                                                                3D Printing                                    Traditional Manufacturing                          temperature, wind, and humidity
                                                                                                             Once you have the design file, there is                   It takes a great deal of time and resources to             in melting processes. Finally,
                                                                                                             little upfront time required to begin printing,           set up machines for production. However,                   the characteristics that make
                                                                                                             though each item can take a long time to                  once fabrication begins, each item can be
                                                                                                                                                                                                                                  a material a good candidate
                                                                                            Speed                                                                                                                                 for 3D printing, such as a low
                                                                                                             print. This makes it ideal for prototyping,               manufactured quickly. This makes it ideal for
                                                                                                                                                                                                                                  melting point, also can make
                                                                                                             small production runs, or customized                      mass production of identical items.
                                                                                                                                                                                                                                  the resulting parts unsuitable for
                                                                                                             products.                                                                                                            durable use without significant
Table of Contents




                                                                                                             There are low upfront costs, but often                    There are high upfront costs, but relatively low           post-production processing. For
                                                                                                             relatively high per-unit costs. There is                  per-unit costs. It also requires skilled workers           example, a dashboard GPS
                                                                                             Cost                                                                                                                                 mount printed with plastic can
                                                                                                             minimal need for skilled labor (other than                to configure and operate machines.
                                                                                                             design).
                                                                                                                                                                                                                                  become soft or melt down entirely
                                                                                                                                                                                                                                  in a vehicle left in the hot sun.
                                                                                                             Complex or hollow items are no more                       Retooling costs make it impractical to
                                                                                                             difficult to print than simple items. Also,               customize or experiment with new product                   Table 1 highlights some of
                                                                                                             designs can be adjusted or customized                     designs. Also, it is often impossible to make              the key differences between
                                                                                                             easily, allowing manufacturers to respond                 certain designs in a single piece, including               3D printing and traditional
                                                                                          Flexibility        quickly to customer preferences. However,                 hollow or highly intricate items. However,                 manufacturing.
                                                                                                             the relatively young technology still has a               techniques already exist to produce a virtually
                                                                                                             limited array of materials that can be used,                               Because of these advantages
                                                                                                                                                                       limitless array of items using a broad swath of
                                                                                                             and it is not well suited for making some                 materials.       and limitations, 3D printing is
                                                                                                             types of products.                                                         generally best suited for relatively
                                                                                                                                                                                        small production runs. Once
                                                                                                                                                                                        the number of units produced
Observations




                                                                                     Source: U.S. Postal Service Office of Inspector General (USPS OIG) analysis.
                                                                                 Source: U.S. Postal Service Office of Inspector General (USPS OIG) analysis.                           is large enough, traditional
                                                                                                                                                                                        manufacturing methods are
                                                                                 usually more cost-efficient. Figure 3 shows conceptual cost curves for traditional manufacturing and 3D printing. The area to the
                                                                                 left of the intersection of the lines represents production runs that are ideal for 3D printing because it would cost less to produce
                                                                                 that quantity of items with 3D printing than traditional manufacturing. It is important to note that the cost curve for 3D printing will
                                                                                 move downward as technological advancements make the process easier, faster, and cheaper. As the costs decrease, the area to
                                                                                 the left of the intersection grows larger — representing an increased number of goods well suited for 3D printing. For non-identical
                                                                                 items, 3D printing is already likely the most efficient process in many cases.

                                                                                 The Precise Future of 3D Printing is Still Uncertain
                                                                                 Given the disruptive potential of 3D printing and the pace at which the market is changing, nobody knows exactly how 3D printing
                                                                                 will evolve. Some experts say the technology will completely revolutionize the way we create and consume nearly everything,
                                                                                 and that 3D printers will one day be as common in households as microwave ovens. Others say 3D printing will just gradually
                                                                                 change how a number of key industries work, remain a niche technology used mostly by dedicated hobbyists, or continue as a
Appendices




                                                                                 tool best meant for rapid prototyping and other industrial uses. Regardless of precisely how it evolves, 3D printing is likely to move
                                                                                 production closer to the point of consumption and could call into question longstanding tenets of manufacturing, including the need
                                                                                 for centralized factories, rigid supply chains, and commoditized mass production.21

                                                                                 20
                                                                                      	 For examples of failed 3D prints, please see http://epic3dprintingfail.tumblr.com/.
                                                                                 21
                                                                                      	 Institute for the Future, The Future of Open Fabrication, http://www.iftf.org/uploads/media/SR-1390_FutureOfOpenFab.FINAL_sm.pdf, p. 8.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                       Print                                      7
Executive Summary                                                                Growth of the 3D Printing Market                                                                          Figure 3: Cost Comparison Between 3D Printing and
                                                                                                                                                                                           Traditional Manufacturing
                                                                                 Like many modern technologies, 3D printing is changing rapidly.
                                                                                 Shifts in consumer preferences, technological advancements,
                                                                                 and other factors are drastically altering how and why businesses                                           THE ECONOMICS OF 3D PRINTING VS MASS
                                                                                 and consumers use 3D printing. The global market for 3D printing,                                           MANUFACTURING ARE CHANGING
                                                                                 consisting of all products and services, had a compound annual                                              3D printing of identical finished products only makes economic sense
                                                                                 growth rate of 34.9 percent in 2013 — the highest in 17 years.22                                            if you’re printing a limited number. For larger quantities, traditional
                                                                                 This could be solid evidence that the 3D printing revolution has                                            manufacturing currently costs less per unit. But as 3D printing gets
                                                                                 begun. Sales of industrial printers, generally considered those                                             faster and cheaper (shown with the dotted lines below), the unit
                                                                                 that cost more than $5,000, have increased over the past couple                                             threshold where it makes economic sense to 3D print items will
                                                                                 of decades, with an average compound annual growth rate of                                                  increase. As that happens, a cascade of industries may switch to 3D
                                                                                 31.1 percent from 1989 to 2012.23                                                                           printing to save on manufacturing costs.

                                                                                 In addition, sales of personal or desktop 3D printers — those
Table of Contents




                                                                                 that cost $5,000 or less — have skyrocketed in the past few                                                                      Traditional Manufacturing
                                                                                 years. Figure 4 shows the estimated number of personal or                               3D Printing




                                                                                                                                                                                              RELATIVE COSTS
                                                                                 desktop 3D printers sold between 2007 and 2012, when there                        (costs will fall over time)

                           The more objects people                               was a substantial leap in the number of printers sold — even if
                                                                                 these devices represent only a small portion of the overall 3D
                                                                                                                                   printing market.
                             want to print, the more                                                                               The size of the
                                                                                 Figure 4: Sales of Personal 3D Printers
                                                                                                                                   personal 3D
                            they will want access to                                                                               printer market is
                                                                                  PERSONAL
                                                                                   P E R S O N A L PPRINTERS
                                                                                                          R INT E R S              difficult to measure
                             3D printing. This will be                            TAKING
                                                                                   T AK ING OFF     OFF                            because such
                                                                                   Sales of personal 3D printers have surged in    estimates generally
                          the primary market driver,                               recent years, with the average machine          do not count 3D
                                                                                                                                                                 One            Tens           Hundreds              Thousands           Millions
                                                                                   selling for $1,124 in 2012 — just a fraction of printing hobbyists
                          rather than advancements                                 the nearly $80,000 price tag fetched by the     who sometimes                                               NUMBER OF UNITS
                                                                                   average industrial machine.                     build their own            Source: Zack Schildhorn, Lux Capital. Modified by the USPS OIG. These conceptual cost
                                in technology alone.                                                                                                      Source: Zack
                                                                                                                                                                     areSchildhorn,   Lux Capital. Modified by the USPS OIG. These conceptual cost
Observations




                                                                                                                                   machines. As a             curves     purely illustrative.
                                                                                                                                                          curves are purely illustrative.
                                                                                                                          35,508   result, the actual
                                                                                                                                   number of personal
                                                                                      Number of personal 3D
                                                                                            printers sold
                                                                                                                                   3D printers inside homes and small businesses is likely much higher. There also are
                                                                                                                  24,265
                                                                                                                                   recent examples of personal 3D printers that attract a great deal of attention from the
                                                                                                                                   public. One Kickstarter campaign for a consumer 3D printer sold more than 9,000
                                                                                                                                   units in 10 days, and raised more than $2 million in just 3 days.24 The campaign had
                                                                                                                                   an original crowdfunding goal of raising just $50,000 in 30 days — a goal that it met in
                                                                                                                                   just 11 minutes.25

                                                                                                                      5,978                              Ultimately, the number of applications of 3D printing, and not merely the technology
                                                                                                            1,816                                        itself, will likely drive its popularity in the consumer market. In other words, as the
                                                                                           66       355
                                                                                                                                                         universe of “things to print” gets larger, consumer demand is likely to grow. Having
                                                                                         2007      2008     2009      2010      2011     2012            robust and accessible sources of virtual objects will therefore boost the overall growth of
                                                                                                                                                         3D printing. The largest current library of virtual objects is MakerBot’s Thingiverse.com,
Appendices




                                                                                  Source:
                                                                                 Source:  Wohlers
                                                                                         Wohlers   Report
                                                                                                 Report     2013.
                                                                                                        2013.


                                                                                 22
                                                                                      	 Wohlers Associates, “Wohlers Report 2014 Uncovers Annual Growth of 34.9% for 3D Printing and Additive Manufacturing Industry,” http://wohlersassociates.com/press63.html.
                                                                                 23
                                                                                      	 Wohlers Associates, Wohlers Report 2013: Additive Manufacturing and 3D Printing State of the Industry, Annual Worldwide Progress Report, pp. 129-130.
                                                                                 24
                                                                                      	 Kickstarter is a website that allows people to solicit small dollar investors to fund a project, https://www.kickstarter.com/projects/m3d/the-micro-the-first-truly-consumer-3d-printer.
                                                                                 25
                                                                                      	 Salvador Rodriguez, “Micro 3-D printer reaches Kickstarter goal of $50,000 in 11 minutes,” Los Angeles Times, April 7, 2014, http://www.latimes.com/business/technology/la-fi-tn-micro-3d-
                                                                                       printer-kickstarter-50000-11-minutes-20140407,0,7778172.story#axzz30ZN0CDwc.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                                Print                                                8
Executive Summary                                                                which contains more than 100,000 design uploads from users.26 Also, the existing trend toward mass customization will likely grow
                                                                                 and intensify. In fact, this desire for customized goods may be the most significant factor in the growth of 3D printing.27

                                                                                 Regardless, the cost of printers and the range of available printing materials will always be important factors. Overall, 3D printers
                                                                                 are getting cheaper. Just a few years ago, they were enormously expensive and outside many people’s price range. Today, low-
                                                                                 end, hobbyist machines now can cost less than $300. In addition, printing materials are no longer limited to just basic plastics or
                                                                                 metals. There are now filaments made from nylon that can be used to create flexible parts, as well as filaments partially made
                                                                                 from wood that can be drilled or cut similar to natural wood. As printers and printing materials become more capable, useful, and
                          Where will consumers get                               available, the public’s uptake of 3D printing is likely to increase. Improvements in the software used to design virtual objects also
                                                                                 will help fuel the growth of 3D printing.
                             the 3D printed products
                                                                                 Intellectual Property and Liability Issues
                          they need — from printers                              Lingering questions about intellectual property, patent protection, and liability also will shape this technology’s future. In a world
                                                                                 with ubiquitous 3D printers or 3D printing services, discovering and combating the infringement of intellectual property rights and
                          inside their homes or from
Table of Contents




                                                                                 patents is likely to become increasingly difficult, if not impossible. Once the public has access to a digital design file, widespread
                                                                                 reproduction of the object becomes a real possibility — whether or not the creator or rights holder for the design wants it. In many
                         businesses selling finished                             ways, this is similar to what happened to digital music once files appeared on online filesharing sites. In addition, as 3D printing
                                                                                 becomes more popular there may be increasing concerns about liability issues. For example, if a 3D printed part fails, who is the
                         3D printed goods? Perhaps                               responsible party — the person who printed the object, the creator of the digital design, the manufacturer of the printer itself, the
                                                                                 raw materials supplier, or someone else entirely? These issues will likely play out in the courts over the coming years and decades.
                              both at the same time,
                                                                                 Where Will Consumers Access 3D Printing?
                      depending on what they need.
                                                                                 Many big questions hang over the future of 3D printing. Will mass customization replace a significant share of mass production?
                                                                                 And, if so, where will consumers go to access 3D printing? Will they buy the 3D printed products and services they need from
                                                                                 businesses and have them delivered? Will they print what they need at home? Will they do both? Will they even know what
                                                                                 products are being fully or partially 3D printed? Manufacturers with high-end printers can make products or parts for others on
                                                                                 demand, offering a nearly limitless assortment of customized goods while keeping physical warehousing needs to an absolute
                                                                                 minimum. Because consumers can get their 3D printing needs fulfilled quickly, cheaply, and easily by such businesses, many
                                                                                 consumers will likely use in-home 3D printers for much more limited purposes.
Observations




                                                                                 The advance of “2D” ink printers might help shed some light on how this could play out. To be clear, there are fundamental
                                                                                 differences between 2D and 3D printing, and people’s relationship with two-dimensional information is different from their
                                                                                 relationship with three-dimensional objects. Nevertheless, the analogy is useful. Throughout most of their history, 2D printers
                                                                                 were large, labor-intensive industrial machines that had to be hand-configured for each item they were printing. Much like
                                  The Postal Service                             traditional factories today, they were best at doing large runs of identical items. However, digital printing advances that began in
                                                                                 the 1970s changed things dramatically. Within a few decades, inexpensive desktop machines that could print high quality, color
                                has the most to gain                             images would become ubiquitous. However, those in-home printers did not replace the need for professionally printed materials.
                                                                                 It did not make sense for people to print their newspapers, magazines, and books at home. Such mass-produced products are
                                    from 3D printing                             still printed on big industrial machines. Even for smaller-run items like brochures, invitations, or posters, most people prefer to
                                                                                 print them at local copy centers, which have equipment with the speed and capacity to produce high-quality items more quickly.
                                  compared to other
                                                                                 These same dynamics may hold true for 3D printing. Some theorize that every home will have a 3D printer one day, which people
                                      delivery firms.                            will use to make all sorts of items that they currently buy at retail stores or online. A Michigan Technological University study even
                                                                                 asserts that 3D printers are already cost-effective home appliances.28 While people may be able to use their in-home printers for
                                                                                 some items, based on this 2D printing analogy, it is likely that most products will still be manufactured by traditional means or
Appendices




                                                                                 industrial grade 3D printers. It is also likely that local 3D printing centers, similar to existing copy centers, could serve as a place

                                                                                 26
                                                                                      	 “About,” MakerBot Thingiverse, http://www.thingiverse.com/about.
                                                                                 27
                                                                                      	 Paul Willis, “New Dimension,” Postal Technology International, March 2013, http://www.postaltechnologyinternational.com/articles.php?ArticleID=552.
                                                                                 28
                                                                                      	 B.T. Wittbrodt, A.G.Glover, J. Laureto, G.C. Anzalone, D. Oppliger, J.L. Irwin, and J.M. Pearce, “Life-Cycle Economic Analysis of Distributed Manufacturing with Open-Source 3-D Printers,”
                                                                                       Mechatronics, 6, No. 23 (September 2013), http://www.sciencedirect.com/science/article/pii/S0957415813001153, pp. 713-726.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                           Print                                                      9
Executive Summary                                                                where people could both scan items they would like to recreate or order professional-grade 3D prints of designs they may have
                                                                                 purchased online.

                                                                                 3D Printing Could Bring Substantial Benefits and Opportunities for the Postal Service
                                                                                 A 3D printing revolution might be a huge opportunity for the Postal Service. This is primarily due to two factors: the Postal Service’s
                                                                                 ubiquitous delivery network and its strength in handling lightweight goods. The Postal Service has an unmatched last-mile delivery
                                                                                 network. Six days per week, it delivers to 153 million
                           Most 3D printed items are                             addresses across the United States. In addition, it has more      Figure 5: Postal Facilities as 3D Printing Hubs
                                                                                 than 211,000 vehicles that drive about 1.2 billion miles
                          lightweight, and the Postal                            annually.29 Moreover, it employs nearly 114,000 rural carriers
                                                                                 and nearly 198,000 city carriers who not only deliver letters
                                                                                                                                                     USPS FACILITIES COULD           U S P S FA C I L I T I E S C O U L D
                              Service delivers nearly                            and packages, but also can pick up items to be shipped.30           SERVE AS 3D PRINTING HUBS       S E R V E AS 3D PR INT ING HUB S
                                                                                 No other organization covers so much territory as frequently
                                                                                                                                                     In the future, many small and regional 3D printing manufacturers
                          two‑thirds of all lightweight                          and reliably.
Table of Contents




                                                                                                                                                     may be looking to speed up and streamline product shipments.
                                                                                                                                                     The Postal Service could encourage these businesses to locate
                               commercial packages.                              The Postal Service also has a natural advantage in
                                                                                 delivering lightweight goods, given its ubiquitous presence         near or even inside postal processing plants, which often have
                                                                                 and frequency of delivery. It is often not cost effective for       excess industrial space. Those companies would better serve
                                                                                 private delivery firms to make separate stops to deliver            customers by being able to enter products seamlessly into the
                                                                                 small, relatively inexpensive packages — particularly in rural      mail. It also could boost package revenue for the Postal Service
                                                                                 areas. However, the Postal Service is already visiting these        by $323 to $646 million per year.
                                                                                 locations every day. As such, other delivery firms often use
                                                                                 the Postal Service for last-mile delivery.31 In fact, nearly two
                                                                                 thirds of lightweight, commercial packages are delivered to
                                                                                 their final destination by the Postal Service.32 This is directly                                             Growth in commercial
                                                                                                                                                              Low                  $323




                                                                                                                                                                                      3D printing disruption level
                                                                                                                                                                                                 package revenue
                                                                                 relevant to 3D printing, as the vast majority of 3D printed
                                                                                 consumer goods are relatively lightweight.33 There are
                                Emerging 3D printing                             several reasons for this. First, most 3D printing materials
                                                                                 themselves are lightweight. Second, many 3D printers have
                               businesses could use                              relatively small print areas. Third, designers intentionally             Medium                              $485
Observations




                                                                                 create many 3D printed objects to be lightweight with holes
                                 the ubiquitous first-                           or other cutout areas that reduce excess materials and
                                                                                 therefore weight. Finally, because it takes significantly more
                                  and last-mile postal                           time to produce larger and heavier goods, these bulkier                     High                                         $646
                                                                                 items are far more often produced by conventional methods.
                                  network to connect                                                                                                                                                                 Revenue growth in millions
                                                                                 We asked Christensen Associates to assess what impact a                                             (based on 2013 figures)
                                with their customers.                            3D printing revolution could have on the Postal Service. To          Note:  Above revenue  increases do not take into account potential leasing income.
                                                                                 do so, Christensen Associates analyzed commercial package Note:          Above revenue increases do not take into acocunt potential leasing income.
                                                                                                                                                      Source:  USPS  OIG  graphic based   on data  from Christensen    Associates.
                                                                                                                                                     Source: USPS OIG graphic based on data  from Christensen  Associates.
                                                                                 data from fiscal year 2013 (October 1, 2012 to September
                                                                                 30, 2013), focusing on industries and parts of the supply chain that would likely be affected by increased levels of 3D printing. For
                                                                                 example, 3D printing is likely to affect the market for toys, electronics, jewelry, and auto parts. Christensen Associates conducted a

                                                                                 29
                                                                                      	 U.S. Postal Service, “About Us,” http://about.usps.com/who-we-are/postal-facts/size-scope.htm.
Appendices




                                                                                 30
                                                                                      	 U.S. Postal Service, “Postal Service Active Employee Statistical Summary (HAT Report), Pay Period 12, FY 2014,” accessed via U.S. Postal Regulatory Commission website at http://www.prc.
                                                                                       gov.
                                                                                 31
                                                                                      	 For example, Fred Smith, Chairman and CEO of FedEx, cited the Postal Service’s density as a primary reason behind the development of the company’s SmartPost product, which uses the
                                                                                       Postal Service for last-mile delivery of packages. Please see cepobserver.com/2010/09/fedex-earnings-implications-for-the-usps.
                                                                                 32
                                                                                      	 Christensen Associates analysis of commercial package data.
                                                                                 33
                                                                                      	 For our analysis, we assumed that most of the goods that would benefit from 3D printing as opposed to traditional manufacturing would weigh 1.5 pounds or less. This incorporates the entire
                                                                                       weight of the package, including the box and any packing materials. For comparison, many shoes sold on Amazon and other websites have a total estimated package weight of about 2 to 2.5
                                                                                       pounds.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                          Print                                                    10
Executive Summary                                                                scenario analysis to account for differences in the future development of 3D printing. In this paper, we focus on two scenarios that
                                                                                 are directly relevant to the Postal Service, as described below. Please see Appendices B and C for more details on the methodology
                                                                                 and results of Christensen Associates’ analysis.

                                                                                 Centralized 3D Printing: Businesses Sell Finished 3D Printed Goods to Consumers
                                                                                 Given that 3D printing dramatically lowers the barriers to entry for manufacturing, small 3D printing businesses are already
                                                                                 cropping up. They primarily use industrial-grade printers, selling high quality customized goods and/or printing services over the
                                      Major national                             Internet. As this burgeoning sector grows, these businesses could increasingly compete on speed. This could lead them to place
                                                                                 their printing facilities near shipping nodes, which would allow them to get their products into the delivery stream more quickly. This
                                                                                 creates a potential win-win opportunity for these businesses and the Postal Service.
                                     companies and
                                   small businesses                              Christensen Associates examined this likely future scenario and projected that it could lead to an 18 percent increase in
                                                                                 commercial package volume for the Postal Service. That translates into around $485 million in additional annual revenue, based
                                                                                 on 2013 figures. This assumes a medium level of 3D printing disruption. The real-life outcome, of course, will be greatly influenced
                                  are already getting
Table of Contents




                                                                                 by technological advancements, changes in consumer preferences, and other factors that are outside the scope of this paper. It
                                                                                 also is important to note that the Postal Service’s benefit from 3D printing will be tied to the strength of its network. Weakening
                                    into 3D printing.                            of the network — through reductions in important features like service frequency, number of delivery points, tracking and tracing
                                                                                 services, or pick-up options — could result in the Postal Service forgoing new opportunities in 3D printing.

                                                                                 There is evidence that this scenario is already becoming a reality. For example, innovative new retailers like Shapeways give
                                                                                 consumers a way to buy designs and 3D printing services a la carte. Consumers can pick an existing design on Shapeways.com,
                                                                                 as well as a preferred printing material, and pay for that design to be printed and mailed to them. Consumers can also submit their
                                                                                 own digital files for others to print, or hire an expert to create a digital design based on the consumer’s imagination.34 At locations
                                                                                 such as the 3D Heights print store in New York City, people can have their faces scanned and printed onto a wide variety of
                                                                                 figurines, and have them shipped directly to their home.35

                                                                                 The Postal Service could market itself as a logistics partner for 3D printing businesses located near Postal facilities, giving them
                                                                                 a streamlined way to ship products quickly. In addition, the Postal Service has more than 60 million square feet of excess space
                                                                                 nationwide, much of which is in mail processing centers.36 These are industrial facilities that could accommodate the electrical
                                                                                 power and ventilation needs of large 3D printers. The Postal Service could lease some of this space directly to 3D printing
Observations




                          While massive amounts of                               businesses, making it even easier for them to ship products quickly.
                          in-home 3D printing could                              In addition, major national companies are starting to offer 3D printing services to consumers and to small businesses looking to
                                                                                 get into the 3D printing market themselves. For example, Amazon recently began a pilot program in which it gives consumers
                             reduce USPS deliveries                              the chance to purchase a variety of 3D printed products from independent designers looking to tap into Amazon’s huge customer
                                                                                 base.37 UPS also is conducting a pilot 3D printing service in several major cities across the United States. It aims its 3D printing
                            of finished products, the                            services primarily at small businesses and entrepreneurs who need to outsource printing of their digital designs. UPS also
                                                                                 provides digital design experts for hire on an hourly basis.38
                              boost in shipments of
                                                                                 Decentralized 3D Printing: People Print Some Goods at Home Instead of Buying Them
                            printing materials could
                                                                                 Much of the buzz around 3D printing is based on the idea that people could one day use affordable, high quality in-home printers
                           more than make up for it.                             to make many, if not most, of the items they now purchase from retailers. This is highly unlikely. If in-home 3D printers become
                                                                                 ubiquitous, they would probably only be used for relatively few items. Nevertheless, this improbable scenario would be massively
                                                                                 disruptive to the retail supply chain. It could lead to big cuts in brick-and-mortar and e-commerce sales, and a corresponding drop
Appendices




                                                                                 in the number of commercial packages shipped. (Please see Appendix D for a list of retail sectors that could face disruption.)
                                                                                 34
                                                                                      	 Consumers who submit digital designs to Shapeways can also choose to keep those designs private and therefore unavailable for purchase to other consumers.
                                                                                 35
                                                                                      	 For more information, please see http://www.3dheights.com/.
                                                                                 36
                                                                                      	 U.S. Postal Service Office of Inspector General, 21st Century Post Office: Opportunities to Share Excess Resources, Dec. 5, 2011, http://www.uspsoig.gov/blog/21st-century-post-office-
                                                                                       opportunities-share-excess-resources.
                                                                                 37
                                                                                      	 Catherine Clifford, “Amazon Launches Pilot Program Selling 3-D Printed Products,” Entrepreneur, March 6, 2014, http://www.entrepreneur.com/article/232013.
                                                                                 38
                                                                                      	 Rakesh Sharma, “UPS May Have Hit Pay Dirt With 3D Printing,” Forbes, August 19, 2013, http://www.forbes.com/sites/rakeshsharma/2013/08/19/ups-may-have-hit-pay-dirt-with-3d-printing/.
                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                          Print                                                   11
Executive Summary                                                                Even though a vast range of products under this scenario would be printed at home instead of being shipped to consumers,
                                                                                 every household doing frequent printing would need a variety of 3D printing
                                                                                 materials so that they could continue to make the things they need. Analysis
                                                                                 from Christensen Associates shows that the increase in shipments of printing        3D Printing’s Impact on Logistics
                                                                                 materials could actually more than make up for the decline in deliveries of
                                                                                 finished products. In part, this is because shipments of printing materials would     3D printing could have a big impact on
                                                                                 replace brick-and-mortar purchases that were not shipped through the Postal           the way products move through the
                                                                                 Service to begin with. At a low level of disruption, this scenario could result in    supply chain, presenting opportunities for
                                                                                 an increase of about 12 percent in the Postal Service’s commercial package            the Postal Service.
                      The Postal Service could help                              volume. A high level of disruption could mean a 28 percent increase.39 Based on
                                                                                 2013 figures, that translates into a $357 million to $1.1 billion annual increase     •	 Some manufacturing will move back
                      usher in a new, brighter era in                            in revenue. However, this scenario is not only highly unlikely, but also highly           to the United States.
                                                                                 uncertain. Many hard-to-predict factors could lead to very different outcomes
                           American manufacturing.                               for Postal Service package volume, including the development of a 3D printing         •	 Retail storefronts could convert to
                                                                                 material retail network that is largely nonexistent today.                                “shop windows” for manufacturers,
Table of Contents




                                                                                                                                                                                                                         keeping only a model in stock and
                                                                                 It is important to note that these scenarios are not mutually exclusive, and could                                                      custom printing each item as ordered.
                                                                                 happen at the same time. For example, businesses could begin to sell more 3D
                                                                                 printed goods to consumers at the same time as people start to use in-home                                                         •	   Warehouses will shift from physical
                                                                                 printers to create some items. If this happened, then the effects on the Postal                                                         to digital, as spare parts are scanned
                                                                                 Service in terms of new revenue and commercial package volume would likely                                                              into vast libraries for future on-
                                                                                 be some combination of the effects of both scenarios.                                                                                   demand printing.

                                                                                                                                                                                                             Source: Transport Intelligence, The Implications of 3D Printing for the
                                                                                 The Postal Service Could Play a Major Role                                                                                  Global Logistics Industry.


                                                                                 in 3D Printing
                                                                                 While the Postal Service can significantly benefit from the growth of 3D printing merely by maintaining its existing network and
                                                                                 keeping pace with delivery industry changes, it could take concrete actions to enhance or expand its role so that it can benefit
                                                                                 even more from 3D printing. It could position itself to become a major player in the emerging 3D printing and delivery market. To
                                                                                 get the most out of a 3D printing revolution, the Postal Service will need to match its strategic positioning to the expansion of 3D
Observations




                                                                                 printing. This would not only be good for the Postal Service, but also good for the economy.

                                                                                 It is no secret that globalization has decimated American manufacturing jobs. Factories in a broad swath of industries have moved
                                                                                 abroad, where labor is cheaper. 3D printing has the potential to change that trend, bringing a new wave of manufacturing jobs back
                                                                                 to the United States. As small and regional 3D printing businesses proliferate, the full economic benefit of those sales will stay in the
                                                                                 United States. If the Postal Service can help these companies compete and thrive, it could help usher in a brighter era in American
                                                                                 manufacturing. Below, we propose a few potential strategies and ideas for the Postal Service to consider.

                                                                                 Consider How 3D Printing Could Affect Current Focus and Core Assets
                                                                                 The Postal Service’s ubiquitous physical network and unrivaled first- and last-mile delivery capabilities give it a tremendous advantage
                                                                                 in serving the 3D printing needs of consumers and businesses. Postal management can take action to ensure that the Postal Service
                                                                                 does not lose its current position of strength, and to utilize 3D printing to better optimize future changes. For example:

                                                                                 ■■ As the Postal Service continues to consolidate its processing network, it should guard against any changes that would lessen
Appendices




                                                                                    the value of its first- and last-mile package delivery network. Any weakening of its network could minimize the Postal Service’s
                                                                                    ability to get the most out of the growth and new developments in 3D printing.



                                                                                 39
                                                                                      	 This analysis assumes that the Postal Service would deliver 50 percent of materials shipments. However, as the retail market for 3D printing materials develops, some consumers may buy
                                                                                       them from brick-and-mortar stores.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                         Print                                                     12
Executive Summary                                                                                                                                                      ■■     According to some observers, 3D printing is creating a new type of
                                                                                        La Poste Embraces 3D Printing                                                  logistics company that focuses on delivery, returns, recycling, and other
                                                                                                                                                                       parts of the emerging 3D printing market. In fact, the movement, storage,
                                                                                            In November 2013, France’s La Poste began                                  and home delivery of 3D printing materials alone could become a major
                                                                                            a partnership with 3D printing company                                     new sector of the logistics industry.40 The Postal Service has many existing
                                                                                            Sculpteo to install 3D printers in three Paris-                            assets that could help it play an expanded role in helping products move
                                                                                            area post offices, as well as to offer an online                           through the supply chain.41 Any actions to enhance its logistics capabilities
                                                                                            marketplace where customers can order 3D                                   should consider the potential growth of 3D printing.
                                                                                            printed products. Customers can submit their
                                                                                            own designs or pick and customize from a                                   ■■    The Postal Service will someday need to replace its aging fleet of
                                                                                            catalog with about 40,000 designs. La Poste                                delivery vehicles. The rapid growth of e-commerce has already led the
                                                                                            either delivers the products or holds them at                              Postal Service to try to adapt existing vehicles to accommodate large
                                                                                            the post office.                                                           numbers of packages. A 3D printing revolution could greatly exacerbate the
                                                                                                                                                                       need for redesigned, more parcel-ready vehicles.
                                                                                            La Poste benefits from increased foot traffic
Table of Contents




                                                                                            and package shipments, and awareness of                                    ■■   The Postal Service could examine the feasibility of renting excess
                                                                                            its embrace of new technologies. Sculpteo is                               space in postal facilities, such as mail processing centers, to 3D printing
                                                                                            able to better connect with more customers by                              businesses looking for places to conduct printing and store printing materials.
                                 Imagination may be                                         associating itself with the well-known brand of
                                                                                            La Poste, which has a large physical footprint.
                                                                                                                                                                       Establish New Services Targeted at 3D Printing Businesses
                                  the only boundary
                                                                                                                                           The Postal Service could create a platform for 3D printing that uses its
                                 for advertisers’ use                            Source: Interview with Sculpteo representative.           national retail network and last-mile capabilities. By doing so, the Postal
                                                                                                                                           Service would create a digital “middle mile” where, at a basic level, designs
                                      of 3D printing.                            are sent to the platform and then 3D printed and shipped via same-day or next-day delivery. This could be considered a “hybrid
                                                                                 parcel” product, similar to the concept of hybrid mail where digital communications are converted into physical letters. The platform
                                                                                 could also include some type of intermediary role for the Postal Service to facilitate the exchange or use of digital designs in a way
                                                                                 that protects intellectual property rights. For example, the platform might host “official” designs from toy manufacturers or other
                                                                                 companies that are looking to connect with customers in a highly trusted forum.42

                                                                                 At minimum, a Postal Service platform for 3D printing could cater to the needs of businesses that want to set up their 3D printing
Observations




                                                                                 centers near postal facilities, so that the finished goods can drop right into the delivery network. 3D printing will cut the cost of
                                                                                 entry for many new businesses looking to get into key markets, as it makes design easier, reduces some production costs, and
                                                                                 opens the door to serving emerging niche markets.43 The Postal Service’s nationwide network could be indispensable for the
                                                                                 growth of these businesses. The Postal Service could even play a larger role by enhancing its logistics services and helping these
                                                                                 businesses prepare the new 3D printed goods for shipment.

                                                                                 A platform for 3D printing might be most feasible if established through partnerships with private sector companies focused on
                                                                                 3D printing, as France’s La Poste has done. Partners would be more experienced and better equipped to conduct 3D printing or
                                                                                 other innovative services, like 3D scanning. Through partnerships, the Postal Service could tap into this expertise and knowledge
                                                                                 without having to develop it on its own. Partners also could help resolve potential liability issues related to intellectual property or
                                                                                 safety concerns. Moreover, working with private sector companies already engaged in 3D printing could help the Postal Service to
                                                                                 stay current with emerging developments in technology and materials.44
Appendices




                                                                                 40
                                                                                      	 Transport Intelligence, p. 4.
                                                                                 41
                                                                                      	 For more information on how the Postal Service could play an enhanced role in the logistics market, please see U.S. Postal Service Office of Inspector General, The Global Logistics
                                                                                       Revolution: A Pivotal Moment for the Postal Service, RARC-WP-13-010, June 3, 2013, https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-13-010.pdf.
                                                                                 42
                                                                                      	 The Postal Service would need to assess what services might be permissible under the 2006 Postal Accountability and Enhancement Act (PAEA), which generally prohibits the Postal Service
                                                                                       from offering new nonpostal services. For more information, please see 39 U.S.C § 404(e)(2).
                                                                                 43
                                                                                      	 Daniel Cohen, et. al., “3-D Printing Takes Shape,” McKinsey Quarterly.
                                                                                 44
                                                                                      	 For information on public-private partnerships, please see U.S. Postal Service Office of Inspector General, Public-Private Partnerships: Best Practices and Opportunities for the Postal Service,
                                                                                       RARC-WP-13-011, June 24, 2013, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-13-011.pdf.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                            Print                                                     13
Executive Summary                                                                Think about How Advertisers Could Use 3D Printing to Connect with Customers
                                                                                 The Postal Service could look into how advertisers might use 3D printing to better connect with their customers through the
                                                                                 mail. Expanding knowledge of consumer characteristics and preferences is enabling more targeted, cost-effective advertising
                                                                                 campaigns.45 These data could lead to even more customized advertisements using 3D printing. Marketers could send customized
                                                                                 product samples or other items tied directly to the individual’s interests and preferences. Eventually marketers could even target
                                                                                 people who own in-home 3D printers with advertisements that contain scannable codes. If the consumer wants the product in
                                                                                 the ad, they simply scan the code to download the digital design to their home 3D printer, which builds the item on the spot.
                                                                                 Alternatively, by simply scanning the code customers could have the design printed out at a nearby facility, ready for quick shipping
                                                                                 and delivery. With the mass customization enabled by 3D printing and the growing amount of data on consumer preferences,
                                                                                 advertisers’ use of 3D printing for marketing efforts may be bound only by their imaginations.

                                                                                 Use 3D Printing to Improve Internal Operations
                                                                                 Like any organization, the Postal Service could use 3D printing to improve its internal operations and reduce costs. For example,
                                                                                 it could use 3D printers to create replacement parts for its vast fleet of aging delivery vehicles or its wide array of mail processing
Table of Contents




                                                                                 equipment. In some cases, the companies that originally designed the machines are no longer in business and are therefore
                                                                                 unavailable to provide spare parts. This makes it costly and time-intensive for the Postal Service to fix the machines and it is likely
                                                                                 that these repairs could be faster and cheaper with 3D printing. By reducing parts expense and downtime, the Postal Service could
                                                                                 both save significant resources and improve service.

                                                                                 Additionally, the Postal Service could possibly use 3D printing as a way to facilitate employee suggestions and spread ideas for
                                                                                 improving operations across the country. Employees in specific facilities might have ideas on how they could make operations
                                                                                 more efficient and simple prototypes could be 3D printed and shared throughout the postal network. Finally, 3D printing might even
                                                                                 allow the Postal Service to create customized packing materials for individual items that are oddly shaped or otherwise unsuited
                                                                                 for ready-made boxes and packing supplies.

                                                                                 Conclusion
                                                                                 With 3D printing already changing major industries and promising to transform others, it is clear that we are witnessing a
                                                                                 critical point in the evolution of technology and manufacturing. Although nobody knows exactly how big the market will get or
                                                                                 what direction it will take, 3D printing is here to stay. It could have a major impact on the Postal Service and countless other
Observations




                                                                                 organizations in the United States and across the globe.

                                                                                 As 3D printing democratizes production and design, it could become a fierce engine of economic growth and job creation. We
                                                                                 have not yet begun to see the rise of new businesses taking advantage of this technological revolution, and we are only in the
                                                                                 early stages of new citizen demand for mass customization. By establishing a role in the 3D printing market, the Postal Service
                                                                                 could put a compelling 21st century twist on its historical mission to serve citizens and facilitate commerce.
Appendices




                                                                                 45
                                                                                      	 For more information, please see U.S. Postal Service Office of Inspector General, Enhancing the Value of Mail Follow-Up: Discussion Forum Recap, RARC-IB-14-001, April 3, 2014, http://www.
                                                                                       uspsoig.gov/sites/default/files/document-library-files/2014/rarc-ib-14-001.pdf.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                       Print                                                   14
Executive Summary
                    Appendices                                                   Appendix A: 3D Printing Case Studies...................................................................................... 16
                                                                                 Appendix B: Details on Analysis of Commercial Packages Supply Chain Volumes.................. 18
                                                                                 Appendix C: Potentially Simultaneous Scenarios for 3D Printing............................................. 19
                                                                                 Appendix D: Retail Sectors that Could be Disrupted by In-Home 3D Printing.......................... 20
Table of Contents
Observations
Appendices




                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                        Print                                    15
Executive Summary
                    Appendix A:                                                  3D Printing Case Studies
                                                                                 This appendix features examples of innovative ways people are using 3D printing.46
                    3D Printing Case
                                                                                 Prosthetic Limbs
                    Studies                                                      A carpenter in South Africa collaborated with a design specialist in Washington State                                                 Figure 6: Young Boy Using Robohand
                                                                                 to replace four fingers on his right hand that he lost in an accident. MakerBot provided                                              	  
                                                                                 both of them with a desktop 3D printer, and they began trading ideas and tweaking
                                                                                 the design of the mechanical fingers. The 3D printers allowed them to shorten the
                                                                                 prototyping time from weeks to just 20 minutes, as they traded files and tested new
                                                                                 designs from across the world. After the carpenter’s successful creation of his own 3D
                                                                                 printed fingers, which was dubbed “Robohand,” he provided the design files online for
                                                                                 others to access.
Table of Contents




                                                                                 The parents of a 5-year-old boy who was born with no fingers on his right hand
                                                                                 soon contacted the carpenter to learn more about the Robohand. The boy’s family
                                                                                 was unable to afford traditional prosthetics, and the boy would quickly outgrow such
                                                                                 Figure 7: 3D Printed Prosthetic Limbs          expensive devices anyway. 3D printing             Source: MakerBot Industries.
                                                                                 	                                             offered them an opportunity to create
                                                                                                                                custom-fit artificial fingers that allow the boy to grasp and hold objects for only $150
                                                                                                                                — a fraction of the cost of traditional prosthetics, which can cost more than $10,000
                                                                                                                                per artificial finger.47

                                                                                                                                                     The Robohand design has been downloaded thousands of times by people around
                                                                                                                                                     the world and even adapted for other needs. For example, a teenage boy in Sudan
                                                                                                                                                     lost both of his arms when a bomb dropped on him while he was tending his family’s
                                                                                                                                                     cows. This boy received a 3D printed prosthetic arm based on the Robohand design,
                                                                                                                                                     which only cost about $100 (not counting the cost of the 3D printer and computer).
                                                                                                                                                     The organization that provided the 3D printed arm is now looking to use 3D printers to
                                                                                 Source: MakerBot Industries.                                        help amputees in other conflicts across Africa and the rest of the world.48
Observations




                                                                                                                                                                                                                              Figure 8: 3D Printed Eyewear
                                                                                 Customized Eyewear
                                                                                 Traditional eyewear is mass manufactured, limiting the ability to adjust the frames to
                                                                                 better fit people’s unique faces. However, Protos Eyewear is offering 3D printed eyeglass
                                                                                 frames that are manufactured to each individual’s facial structure. Customers submit two
                                                                                 photographs of themselves — one from the front and one from the side — and select a
                                                                                 frame style. If customers need prescription lenses, they can also submit the necessary
                                                                                 prescription information to Protos. The company then uses software to modify frame
                                                                                 designs to customers’ faces based on the photographs they submit. The end goal is a
                                                                                 pair of glasses that fits the exact contours of each customer’s face, to provide the best fit
                                                                                 and comfort possible.49

                                                                                 Historical Artifacts
                                                                                 Many historical artifacts are extremely fragile and cannot be moved. They are often                                                          Source: MakerBot Industries.
Appendices




                                                                                 46
                                                                                      	 There are many examples of 3D printing applications available online, including on the MakerBot website at http://www.makerbot.com/blog/category/makerbot-stories/ and the Stratasys website
                                                                                       at http://www.stratasys.com/resources/case-studies/.
                                                                                 47
                                                                                      	 “Mechanical Hands From A MakerBot: The Magic Of Robohand,” MakerBot, May 7, 2013, http://www.makerbot.com/blog/2013/05/07/robohand/ and “MakerBot and Robohand,” MakerBot, May
                                                                                       8, 2013, http://makerbot-blog.s3.amazonaws.com/wp-content/uploads/2013/05/Rls_MakerBot_Robohand_May2013.pdf.
                                                                                 48
                                                                                      	 “MakerBot Stories, Project Daniel Takes Robohand to Sudan, MakerBot, Januray 30, 2014, http://www.makerbot.com/blog/2014/01/30/project-daniel-takes-robohand-sudan/.
                                                                                 49
                                                                                      	 “Eyewear 3D Printed to Fit You,” Protos Eyewear, 2014, http://protoseyewear.com.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                         Print                                                  16
Executive Summary                                                                limited to only one museum or occasional traveling exhibits. If you are not able to visit the specific museum that displays an
                                                                                 artifact, you likely will never see it. However, 3D printing is opening up new possibilities. For example, engineers recently
                                                                                 scanned the remains of King Tutankhamen and created a 3D printed replica. Because the engineers followed a painstaking
                                                                                 process of capturing every detail, and due to 3D printing’s layer-by-layer precision, the 3D printed replica is allegedly virtually
                                                                                 indistinguishable from the actual mummy.50

                                                                                 The Smithsonian can only display about 1 percent of its overall collection of 137 million objects, artworks, and specimens. The
                                                                                 millions of other artifacts are left outside the public’s view. To bring this vast collection to the public, the Smithsonian has begun
                                                                                 3D scanning selected objects and releasing the image files to the world. Anyone with a computer and access to the Smithsonian’s
                                                                                 public web portal can download these 3D scans and, if they also have access to a 3D printer, have the scans printed out.
                                                                                 Educating the public is not the only benefit of this endeavor — 3D scanning and printing could also allow researchers to leave
                                                                                 original artifacts undisturbed because all the researchers need to do is scan the object or the surrounding site, and then print it
                                                                                 out later.51
Table of Contents




                                                                                 Figure 9: 3D Scans of Abraham Lincoln’s Life Masks
Observations




                                                                                 Source: Smithsonian Institution.
Appendices




                                                                                 50
                                                                                      	 Brooke Kaelin, “A 3D Printed Replica of King Tut’s Mummy,” 3D Printer World, August 3, 2013, http://www.3dprinterworld.com/article/3d-printed-replica-king-tuts-mummy.
                                                                                 51
                                                                                      	 “About Smithsonian X 3D,” Smithsonian Institution, http://3d.si.edu/about, and Eric Mack, “Smithsonian Now Allows Anyone To 3D Print (Some) Historic Artifacts,” Forbes, November 13, 2013,
                                                                                       http://www.forbes.com/sites/ericmack/2013/11/13/smithsonian-now-allows-anyone-to-3d-print-some-historic-artifacts/.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                         Print                                                   17
Executive Summary
                    Appendix B:                                                  Details on Analysis of Commercial Packages Supply Chain Volumes
                                                                                 For this project, we contracted with Laurits R. Christensen Associates, an economic consulting firm with in-depth knowledge of
                    Details on Analysis                                          U.S. Postal Service operations. Christensen Associates has worked on postal issues since 1981 and performs assessments on
                                                                                 postal data systems for the Postal Service itself.52 This appendix provides some details on the process Christensen Associates
                    of Commercial                                                used to assess the impact of 3D printing on the Postal Service’s commercial packages supply chain.

                    Packages Supply                                              For this analysis, Christensen Associates used a snapshot of the fiscal year 2013 (October 1, 2012 to September 30, 2013)
                                                                                 commercial packages supply chain, with a focus on parts of the supply chain that would be affected if a 3D printing revolution
                    Chain Volumes                                                took place. If a 3D printing revolution does not take place, then these effects would be less significant. To the extent possible,
                                                                                 Christensen’s analysis ignored the reasons for 3D printing’s increase, be it technological advancement, societal trends, a
                                                                                 combination of both, or other factors entirely. Its analysis also ignored the speed of 3D printing’s advancement.

                                                                                 Christensen based its analysis primarily on data from the Postal Service’s Electronic Verification System (eVS). These data could
                                                                                 be considered commercially sensitive, so any raw numbers, mailer-specific, or other highly detailed information from eVS is not
Table of Contents




                                                                                 included in this paper. Because eVS tracks critical information about each individual package traveling along the Postal Service’s
                                                                                 portions of the commercial packages supply chain — such as piece weight, origin entry location, and destination location — the
                                                                                 database offers an examination of commercial package flows at an unprecedented level. Overall, the eVS tracks about 70 percent
                                                                                 of all commercial packages delivered by the Postal Service. The database also provides information to determine the revenue
                                                                                 associated with each package tracked.

                                                                                 Christensen also assessed the weight profile of the Postal Service’s commercial packages supply chain. To do so, it grouped most
                                                                                 of the mailers listed in the eVS into 18 categories based on their primary business function. Nearly all of these categories were
                                                                                 specific to a particular type of product, such as clothing, jewelry, pharmaceuticals, and so on. Christensen determined which of
                                                                                 these categories were associated with goods that could be affected by developments in 3D printing. For two categories that were
                                                                                 non-specific (“Courier/Fulfillment” and “National Retailer”), Christensen used data from the U.S. Census Bureau’s Annual Survey
                                                                                 of Retail Sales to identify related product codes that would be likely to use the commercial packages supply chain and be affected
                                                                                 by 3D printing, and then incorporated calculations from this Census survey information into its assessment of the eVS data.

                                                                                 To create a baseline for comparing the potential effects of various 3D printing scenarios, Christensen quantified the entire U.S.
                                                                                 commercial packages supply chain, including giving the Postal Service “credit” for packages that originate with private delivery
Observations




                                                                                 firms but are handed off to the Postal Service for final delivery. This assumption reflects the fact that advancements in 3D printing
                                                                                 that increase the number of commercial packages shipped will affect both the packages that the Postal Service handles end-to-
                                                                                 end as well as the packages from private delivery firms for which the Postal Service handles final delivery. Christensen derived
                                                                                 volumes for private delivery firms from publicly available sources.

                                                                                 Through these steps and other calculations, Christensen created a snapshot of the entire U.S. commercial packages supply chain
                                                                                 for fiscal year 2013. It then determined volumes for lightweight (1.5 pounds or less) and heavy (more than 1.5 pounds) packages,
                                                                                 and further split the lightweight volumes into groups that would likely be affected by 3D printing and those that would likely not be
                                                                                 affected. With this baseline established, Christensen created assumptions of impact for varying levels of intensity of 3D printing
                                                                                 disruption (low, medium, and high) for each of the scenarios described in the body of this paper. Finally, Christensen created
                                                                                 revenue estimates for each scenario based on the current class mix across packages at 2013 actual postal prices.
Appendices




                                                                                 52
                                                                                      	 Please see the Christensen Associates website at http://www.lrca.com/postal/ for more information.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                             Print                    18
Executive Summary
                    Appendix C:                                                  Potentially Simultaneous Scenarios for 3D Printing
                                                                                 The figure below summarizes how two potential 3D printing revolution scenarios could affect the Postal Service. Each scenario
                    Potentially                                                  results in an increase in annual revenue due to increased package shipments. The scenarios are not meant to be mutually
                                                                                 exclusive, as it is easy to envision a world in which people buy some 3D printed finished products from businesses while also
                    Simultaneous                                                 printing some items at home. The estimates given in the figure show the range of potential annual revenue growth, depending on
                                                                                 how much 3D printing disrupts the status quo.
                    Scenarios for
                    3D Printing                                                  Figure 10: New Revenue from Two Potential 3D Printing Scenarios


                                                                                   3D
                                                                                   3 D PRINTING
                                                                                       P R I N T I N G COULD
                                                                                                       C O U L D BE
                                                                                                                 B E AA POSTAL
                                                                                                                        P O S T A L BOON
                                                                                                                                     B OON
                                                                                   Under two potentially simultaneous scenarios, a 3D printing revolution could lead to more
Table of Contents




                                                                                   shipments of small, lightweight packages — the types of packages the Postal Service
                                                                                   specializes in handling. Depending on the scenario and level of disruption, 3D printing
                                                                                   could boost the Postal Service’s package revenue by $323 million to $1.1 billion per year.
                                                                                   These estimates are based on 2013 package volume data.




                                                                                                                                               Level of 3D printing disruption
                                                                                    USPS
                                                                                    U S P S AAS
                                                                                              S 33D
                                                                                                 D PPRINTING
                                                                                                    R I N T I N G H UHUB
                                                                                                                      B                                                                                 Increases in USPS
                                                                                                                                                                                   Low    $323             commercial
                                                                                    Small and regional businesses 3D print                                                                               package revenue
                                                                                    products at or near Postal Service shipping                                                                              (millions)
                                                                                    nodes before entering products seamlessly
                                                                                    into the mail. These businesses would likely                                                 Medium          $485
                                                                                    compete on speed, so streamlining
                                                                                    deliveries could help them to better serve
                                                                                    customers — while also boosting package
                                                                                    volume for the Postal Service.                                                                 High             $646
Observations




                                                                                                                                               Level of 3D printing disruption
                                                                                    PRODUCTS
                                                                                    P R O D U C T S PPRINTED
                                                                                                     R I N T E D ATAT
                                                                                                                    H OHOME
                                                                                                                        ME                                                         Low    $357
                                                                                    People use in-home 3D printers to produce
                                                                                    many of their items, rather than buying final
                                                                                    products from retailers. While this could reduce
                                                                                    both deliveries of finished products and brick-                                              Medium                 $727
                                                                                    and-mortar purchases, deliveries of printing
                                                                                    materials could surge, potentially giving a boost
                                                                                    to the Postal Service. This scenario could be
                                                                                    very profitable, but a slew of uncertainties and                                               High                         $1,097
                                                                                    potential risks make it highly unlikely.

                                                                                    Source: USPS OIG graphic based on data from Christensen Associates.
                                                                                 Source: USPS OIG graphic based on data from Christensen Associates.
Appendices




                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                            Print   19
Executive Summary
                    Appendix D:                                                  Retail Sectors that Could be Disrupted by In-Home 3D Printing
                                                                                 If Americans begin using in-home 3D printers to manufacture many of the products they now buy from retailers, it could affect
                    Retail Sectors                                               nearly 28 percent of the entire retail trade industry, with as many as 45 billion products potentially being printed at home instead
                                                                                 of purchased at the store.53 It is important to note that the likelihood of such a massive disruption is very low. Even if in-home 3D
                    that Could be                                                printers take off, many people would likely only print a limited number of items. Figure 11 outlines the sectors most vulnerable to
                                                                                 3D printing disruption, as well as the size of those sectors.
                    Disrupted by In-
                    Home 3D Printing
                                                                                 Figure 11: Retail Sectors Vulnerable to 3D
                                                                                 Printing Disruption

                                                                                   VULNERABLE TO DISRUPTION
Table of Contents




                                                                                   If a broad swath of Americans were to use in-home 3D
                                                                                   printers to create many of the items they need instead of
                                                                                   buying those products from retailers, it could turn the retail
                                                                                   sector upside down. More than 900,000 retailers with some
                                                                                   $1.16 trillion in sales could see some of their business
                                                                                   supplanted. The sectors and their sizes are outlined below.

                                                                                                                                   Number of           Total sales
                                                                                                 Retail sector
                                                                                                                                   businesses           (millions)

                                                                                   Miscellaneous retailers                            198,146             $48,611
                                                                                   Clothing                                           187,528            $190,960
                                                                                   Gift, novelty, and souvenirs                       103,351             $25,355
                                                                                   Electronics                                        103,214            $143,850
Observations




                                                                                   Sporting goods                                      61,453             $38,985
                                                                                   Jewelry                                             53,781             $44,979
                                                                                   Auto parts                                          45,554            $162,322
                                                                                   General merchandise                                 37,518            $408,080
                                                                                   Hobby, toys, and games                              36,888             $26,059
                                                                                   Shoes                                               30,853             $25,804
                                                                                   Sewing, needlework, and piece
                                                                                                                                       18,930             $10,189
                                                                                   goods
                                                                                   Household appliances                                16,998             $14,346
                                                                                   Musical instruments                                 11,731              $6,314
                                                                                   Office supplies and stationary                      10,958              $9,526
Appendices




                                                                                    Source: USPS OIG graphic based on Christensen Associates analysis
                                                                                 Source: USPS OIG graphic based on Christensen Associates analysis of 2011 retail
                                                                                    of data.
                                                                                 sales 2011 retail sales data.




                                                                                 53	 Based on analysis from Christensen Associates, using simplified assumptions about the average unit price in the retail trade industry.

                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                                                                                                         Print   20
Executive Summary
Table of Contents




                                                                                 U.S. Postal Service Office of Inspector General
                                                                                              1735 N. Lynn Street
                                                                                              Arlington, VA 22209
Observations




                                                                                           Telephone: 703-248-2100
                                                                                               www.uspsoig.gov

                                                                                 For media inquiries, contact Agapi Doulaveris
                                                                                          Telephone: 703-248-2286
                                                                                          adoulaveris@uspsoig.gov
Appendices




                    If it Prints, It Ships: 3D Printing and the Postal Service
                    Report Number: RARC-WP-011-DR
                                                                                                                                   Print   21
